audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grant to the Sheridan, Colorado, Police Department

GR-80-99-017
June 3, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the grant awarded by the Office of Community Oriented Policing Services to the City of Sheridan Police Department (Sheridan).  The purpose of the grants is to enhance community policing.  Sheridan was awarded a total of $688,140 to hire five new police officers.
	
	We reviewed Sheridan's compliance with seven essential grant conditions.  We found them to be in compliance with grant requirements relating to budgeting practices, hiring of officers, local matching funds, and reimbursement requests.    However, we found weaknesses in three other areas as identified below.  These weaknesses do not result in any questioned costs, but because the grant award amount was based on approved budgets that were greater than the actual allowable payroll costs, we recommend that $8,395 be put to better use. 
 

While it appears that Sheridan intends to retain the five officers funded under the hiring grant, they did not have a plan for retaining them upon the grant's conclusion.  No specific funding source has been identified to retain the officers.

	Community policing was not fully implemented as detailed in Sheridan's grant application.  The Sheridan Police Department had not developed citizen surveys to determine community needs, had not increased its involvement with community groups and leaders, had not developed a neighborhood watch program or other community crime prevention program, and had not yet conducted any department-wide community policing training.  Citizens we contacted, however, stated they were generally satisfied with the grantee's community policing efforts.

	Three financial status reports were not submitted timely.  

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.